STATE OF NEBRASKA

@fffrr of tbt flttomry Gtntrul
2115 STATE CAPITOL BUILDING
LtNCOLN, NE 68509-8920
(402) 471-2682
TDD (402) 471-2682
FAX (402) 471-3297 or (402) 471-4725

DOUGLAS J. PETERSON
ATTORNEY GENERAL

September 3,2020

Scott Harris
Clerk of the United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re

Schroeder v. Nebraska, No. 20-5263

Capital Case
Rule 30.4 extension request

-

unopposed

Dear Mr. Harris:

The Respondent State of Nebraska requests an extension to and including
Septembe r II, 2020, to file its response brief in opposition to the Petitioner's petition
for a writ of certiorari. Petitioner's counsel of record has advised the State's
undersigned counsel that there is no objection to this request.
The extension request is because undersigned counsel has been at the Mayo
Clinic the past week for his daughter's major surgery'
Sincerely,
/s/ James D. Smith
Senior Assistant Attorney General
Counsel of Record
j ames. smith@nebraska. gov
TeI: 402-47I-2686
Fax: 402- 47I-3297

State of Nebraska, Respondent

cc: Sarah Newell, counsel of record for Petitioner

